<html>
<title> - COMMITTEE MEETING ON A RESOLUTION TO ESTABLISH PROCEDURES IN CONTESTED ELECTION CASES PROPERLY FILED UNDER THE FEDERAL CONTESTED ELECTION ACT, AND RELATED MATTERS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
  COMMITTEE MEETING ON A RESOLUTION TO ESTABLISH PROCEDURES IN CONTESTED 
  ELECTION CASES PROPERLY FILED UNDER THE FEDERAL CONTESTED ELECTION ACT, 
                          AND RELATED MATTERS

=======================================================================

                                 MARKUP

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 19, 2021

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on the Internet:
         http://www.gpoinfo.gov/committee/house-administration
         
         
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
44-946                WASHINGTON : 2021          
 
 
 
 
         
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois, Ranking 
G.K. BUTTERFIELD, North Carolina         Member
PETE AGUILAR, California             BARRY LOUDERMILK, Georgia
MARY GAY SCANLON, Pennsylvania       BRYAN STEIL, Wisconsin
TERESA LEGER FERNANDEZ, New Mexico





COMMITTEE MEETING ON A RESOLUTION TO ESTABLISH PROCEDURES IN CONTESTED 
ELECTION CASES PROPERLY FILED UNDER THE FEDERAL CONTESTED ELECTION ACT, 
                          AND RELATED MATTERS

                              ----------                              


                       FRIDAY, FEBRUARY 19, 2021

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:32 p.m., via 
Webex, Hon. Zoe Lofgren [chairperson of the Committee] 
presiding.
    Present: Representatives Lofgren, Raskin, Butterfield, 
Aguilar, Scanlon, Leger Fernandez, Davis, Loudermilk, and 
Steil.
    Staff Present: Jamie Fleet, Staff Director; David Tucker, 
Parliamentarian; Daniel Taylor, General Counsel; Khalil Abboud, 
Deputy Staff Director; Brandon Jacobs, Legislative Clerk; Peter 
Whippy, Communications Director; and Natalie Young, Press 
Secretary; Tim Monahan, Republican Deputy Staff Director; and 
Caleb Hays, Republican General Counsel.
    The Chairperson. We will call the House Administration 
Committee to order. We have a quorum.
    As I begin, I want to note that we are holding this meeting 
in compliance with the regulations for remote committee 
proceedings pursuant to H. Res. 8.
    Generally, we ask the Committee Members to keep their 
microphones muted to limit background noise, and then Members 
will need to unmute when seeking recognition or when recognized 
for their five minutes.
    Members, please, the rules require you to keep your camera 
on at all times. Even if you need to step away for a moment, 
please don't leave the meeting or turn your camera off.
    I would also like to remind all of us that the regulations 
governing remote proceedings require that we cannot participate 
in more than one committee proceeding at the same time.
    So, at this time, I would ask unanimous consent that all 
members have five legislative days to revise and extend their 
remarks and that any written statements be made part of the 
record. Hearing no objection, so ordered.
    Under Article I, Section 5, Clause 1 of the United States 
Constitution, each house of Congress is the judge of the 
``elections, returns, and qualifications of its own members.''
    Today, the Committee on House Administration will consider 
two Committee on House Administration Resolutions so that we 
can begin the important work of deciding the two election 
contests that have been properly filed under the Federal 
Contested Elections Act and are therefore within the 
Committee's jurisdiction. The two Committee Resolutions we will 
adopt provide a framework for these contests as we move 
forward.
    I will now recognize our Ranking Member, Mr. Davis of 
Illinois, for the purpose of making an opening statement.
    Mr. Davis.
    Mr. Davis. Sorry----
    The Chairperson. We can hear you now.
    Mr. Davis. All right. You got me?
    The Chairperson. We got you.
    Mr. Davis. Okay. I apologize here. I had my document up, 
and then it went away.
    You know, Zoe--there it is.
    The Chairperson. We can hear you.
    Mr. Davis. I am still having a problem accessing it. I am 
sorry.
    First off, I want to say thank you. Of course I would have 
had this ready before, but now I do not.
    Well, Madam Chair, I apologize. My printer is not working. 
Can you come back to me for the opening statement?
    The Chairperson. Certainly.
    Does any other member wish to be heard at this time?
    Seeing none, I will call up Committee on House 
Administration Resolutions 117-10 and 117-11.
    Committee on House Administration Resolution 117-10 
provides a general framework for future filings by the 
contestant and contestee in contested election cases this 
Congress. It restricts filings from either party to those 
expressly authorized or directed by the Federal Contested 
Elections Act or by the Committee on House Administration.
    It sets standards for responses to motions to dismiss and 
replies to those responses. The resolution also informs the 
parties that, if the motion to dismiss is denied or postponed, 
the Committee on House Administration may request that each 
party file a brief within 10 days that answers specific 
questions put forward by the Committee.
    Committee on House Administration Resolution 117-11 
responds to the motion filed by contestant James ``Jim'' 
Oberweis on February 11, 2021, requesting 28 days to file a 
response to Representative Underwood's motion to dismiss any 
hearing on the motion.
    Since the standard set out in the Committee on House 
Administration Resolution 117-10 will now apply to Mr. 
Oberweis's response, the resolution dismisses as moot his 
request to file a response because he will have that 
opportunity under the rules that we are adopting.
    The resolution also denies the motion to set a hearing date 
on the motion to dismiss, because we have provided for the 
response in the first resolution.
    I will now recognize Mr. Davis for his opening statement or 
for any comments he might have on the resolutions before us.
    Mr. Davis. Thank you, Madam Chair.
    I am actually glad we can come to an agreement on adding 
some additional structure to the election contests before us. 
We do need to ensure these proceedings are fair, impartial, and 
transparent. As you know, taxpayers deserve to know exactly how 
much this is costing, so I hope we can find a transparent way 
to disclose the spending.
    Rita Hart had an opportunity to challenge each of these 
claims using Iowa's impartial judicial proceedings, but, 
instead, she has chosen to sidestep Iowa law and ask this House 
to decide this election for Iowa voters. Taking up this 
election contest would set a dangerous precedent that 
candidates don't have to exhaust their legal options through 
the State and can instead go straight to Congress if they don't 
like the outcome of an election.
    I can't think of a worse first step this Committee could 
take in a new Congress than to waste taxpayer dollars by moving 
forward with overturning this election. We know every legal 
vote was counted in Iowa's Second District because the votes 
were counted and recounted using a timely, transparent, and 
bipartisan process. And Congresswoman Miller-Meeks never 
trailed in any officially reported count.
    Bipartisan recount boards in all 24 counties, including a 
member from each campaign and their agreed-upon third member, 
conducted the recount. Following the recount, Iowa's bipartisan 
State canvassing board voted unanimously to declare 
Congresswoman Miller-Meeks the winner on November 30.
    The State's process is solid and fair, and we can trust the 
outcome. In fact, we already have, by seating all four Members 
from Iowa on January 3, who were, again, elected at the same 
time. There is no reason why we should hold Congresswoman 
Miller-Meeks to a different standard.
    Just to be clear, there are no provisional or conditional 
Members of Congress. If you are sworn in and given the right to 
cast a vote on the House floor, you are a duly elected Member 
of Congress, just like Mariannette Miller-Meeks. Congresswoman 
Miller-Meeks is our colleague.
    The last time Democrats overturned an election was in 1985, 
and we saw how partisan of a process this was. In fact, it was 
dubbed the ``Bloody Eighth.'' Democrats decided ballots that 
were not legal under the State law were suddenly determined 
legal votes under new rules invented by a partisan task force 
who completely rejected State law. They changed the rules of 
the game after the game had already been played. And that is 
exactly what could be happening 35 years later.
    While running for an election is partisan in nature, 
administering and determining the outcome should never be. It 
will be one of the greatest mistakes this House makes to take 
up an election contest where the candidate sidestepped the 
courts and instead turned to a partisan process in the House 
because they knew they could not win in any other way.
    I did want to address another election issue related to 
this Committee. Majority Leader Hoyer announced H.R. 1 will be 
on the floor the week of March 1, just over a week away, yet 
this Committee hasn't held any hearings on this bill.
    Could the Chairperson tell me if this Committee will be 
holding any hearings specifically on H.R. 1 or markups on this 
nearly 800-page bill before it goes to the floor?
    The Chairperson. If the gentleman has concluded his 
statement, I will be happy to deal with that.
    Mr. Davis. Well, I would be happy to get your answer after 
I have a couple of more things to say about this bill.
    Regardless of the process, I certainly hope that we are not 
going to be disappointed by hearing that we are not going to 
have a markup. I think this nearly 800-page bill will impact 
millions of Americans' right to vote, and it deserves a markup. 
The taxpayers deserve committees who are doing their work. And 
since Democrats changed House floor rules to shut out a 
difference of opinion, committees are now the only real 
opportunity for the minority to provide an alternative.
    This Committee needs to hear from those who actually run 
our elections about the impact this bill could have. We should 
review the issues we saw during the 2020 election cycle and 
help States develop a better process. Simply mandating how 
States run their elections is not only unconstitutional but it 
will lead to chaos and confusion for voters.
    We saw this play out last year. States that were not 
accustomed to vote-by-mail struggled to implement it. This led 
to chaos in elections throughout the country and weakened voter 
confidence in the process. Hundreds of thousands of people were 
unintentionally disenfranchised. Many ballot integrity 
safeguards were abandoned, and election results took weeks and 
in some cases months to determine.
    H.R. 1 forces all States to make many of these changes that 
were made in the name of COVID permanent. We had observers in 
New York, in California, in Pennsylvania and other parts of the 
country, and I think I speak for many Americans when I say I 
don't want an election process like that again.
    But if H.R. 1 were to become law, that is exactly what the 
American people will get, along with the first-ever corporate 
funding that is laundered through the Federal Government that 
will go directly into your own campaign accounts if you are a 
Member of Congress. This is why I believe it is important we 
have a markup.
    I will conclude now and yield back and await my response.
    The Chairperson. The gentleman yields back. And the chair 
will happily respond to the question about the hearing.
    A hearing has been noticed on H.R. 1 for next Thursday at 
4:00 p.m. eastern standard time. As the Ranking Member has 
noticed, the rules of the House do not require a hearing on 
H.R. 1 since it was passed in the last Congress, but we decided 
to schedule a hearing on it nevertheless. And we look forward 
to the participation of every member.
    I would like----
    Mr. Davis. Would the gentlelady yield?
    The Chairperson. I yield.
    Mr. Davis. A hearing has been scheduled, yes, on election 
issues?
    The Chairperson. On H.R. 1. On H.R. 1.
    Mr. Davis. So we are not going to do another markup of H.R. 
1 even though it has changed from last Congress?
    The Chairperson. No. We are going to have a hearing, and I 
hope that all Members will participate. It is properly noticed, 
and Members will have a chance at the Rules Committee, but we 
are on a tight schedule, as you know.
    I am not going to get into the merits of the contests 
before us, because that will be for down the line in the 
process. We are setting up today a procedure under the 
Constitution and the Federal Contested Elections Act.
    It is my understanding from staff that both the Republican 
staff and the Democratic staff and the members have agreed to 
these procedures. I don't know if any member would like to be 
further heard on the two resolutions laying out the procedures 
before us. Would any member like to be heard on the 
resolutions?
    Hearing none, then I will ask unanimous consent that they 
be considered en bloc and that further reading of the 
resolutions be dispensed with and open for amendment at any 
time.
    [The resolutions follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    The Chairperson. The question is now on the en bloc 
resolutions. Are there any amendments to these resolutions?
    Hearing none, then I would call for the question.
    All those in favor will say aye.
    Any opposed will say no.
    Hearing no noes, it appears the ayes have it, and the en 
bloc resolutions are agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    As we know, this Committee is known for its bipartisan work 
and its collegiality, and I know I can rely on all of our 
Members to continue this tradition as we fulfill our 
constitutional duty to consider these election contests.
    This concludes the business before the Committee today. 
And, without objection, staff is authorized to make any 
necessary technical and conforming changes.
    And I would like to thank all the Members for their 
participation. I look forward to working with each of you in 
the months ahead to accomplish our vital work on these election 
contests.
    And, without further ado, this meeting of the Committee on 
House Administration is, without objection, adjourned.
    [Whereupon, at 2:44 p.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
